2311 Douglas Street

@OCKLE

Le g al B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Bst. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-169
JANE DOE,
Petitioner,
Vv.
IOWA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of November, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONER in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ALEXANDER KORNYA STUART BANNER
ROBERT J. POGGENKLASS Counsel of Record
Towa Legal Aid UCLA School of Law
1111 9th Street Supreme Court Clinic
Suite 230 405 Hilgard Ave.
Des Moines, IA 50314 Los Angeles, CA 90095
(310) 206-8506

banner@law.ucla.edu

Subscribed and sworn to before me this 1st day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary . -
State of Nebraska . C Lobe Qndraw- é. Chk

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38932
Counsel for Respondent:

Kevin Cmelik

Hoover Building, 2nd floor
1305 E. Walnut

Des Moines, IA 50319
(515) 281-5976
kevin.cmelik@ag.iowa.gov
